<html>
<title> - CONNECTING RURAL SMALL BUSINESSES TO BROADBAND: CHALLENGES, SUCCESSES, AND HOW TO DO BETTER</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


   FIELD HEARING: MACHIAS, ME: CONNECTING RURAL SMALL BUSINESSES TO 
         BROADBAND: CHALLENGES, SUCCESSES, AND HOW TO DO BETTER

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           SEPTEMBER 6, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            
                               

            Small Business Committee Document Number 116-041
             Available via the GPO Website: www.govinfo.gov
             
             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-541 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jared Golden................................................     1
Hon. Pete Stauber................................................     4

                               WITNESSES

Mr. Mark Ouellette, President & CEO, Axiom Technologies, LLC, 
  Machias, ME....................................................     6
Mr. Chris Loughlin, Board Member, Downeast Broadband Utility, 
  Town Manager, Baileyville, Maine, Baileyville, ME..............     8
Ms. Lisa Hanscom, Co-Manager, Welch Farm & First Selectman, Roque 
  Bluffs, ME.....................................................    10
Mr. Timothy R. McAfee, CEO, Pioneer Broadband, Houlton, ME.......    13

                                APPENDIX

Prepared Statements:
    Mr. Mark Ouellette, President & CEO, Axiom Technologies, LLC, 
      Machias, ME................................................    22
    Mr. Chris Loughlin, Board Member, Downeast Broadband Utility, 
      Town Manager, Baileyville, Maine, Baileyville, ME..........    24
    Ms. Lisa Hanscom, Co-Manager, Welch Farm & First Selectman, 
      Roque Bluffs, ME...........................................    26
    Mr. Timothy R. McAfee, CEO, Pioneer Broadband, Houlton, ME...    30
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
CONNECTING RURAL SMALL BUSINESSES TO BROADBAND: CHALLENGES, SUCCESSES, 
                          AND HOW TO DO BETTER

                              ----------                              


                       FRIDAY, SEPTEMBER 6, 2019

                  House of Representatives,
               Committee on Small Business,
     Subcommittee on Contracting and Infrastructure
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 3:30 p.m., at 
University of Maine at Machias, Lecture Hall Science 102, 116 
Obrien Ave, Machias, ME, Hon. Jared Golden presiding.
    Present: Representatives Golden and Stauber.
    Chairman GOLDEN. How many of you have been to a hearing in 
the state legislature in Augusta? All right. So we are all 
pretty used to the gavel. All right, good. I am not. I never 
chaired a committee in the state legislature.
    Good afternoon. It is good to see you all here, and thank 
you for coming. We call the Committee to order. I want to thank 
you all for coming out, and a special thanks to the witnesses 
for taking part in this today, I really appreciate it. It is an 
issue that Congressman Stauber and I think is critically 
important, and I know you do as well.
    I also want to thank Mr. Stauber. He is the Subcommittee's 
Ranking Member, and he has come to join us today all the way 
from Minnesota. Pete and I have been working together for eight 
months now in Congress, running this Subcommittee, the Small 
Business Committee Subcommittee on Infrastructure and 
Contracting. He is just a great guy and a real pleasure to work 
with. I feel lucky and blessed to have someone on the other 
side of the aisle sitting next to me in the committee room who 
is serious about serving his community and serious about 
working together to find solutions.
    We held one of these hearings out in Minnesota in his 
district, talking about broadband in rural communities. I found 
that Minnesota was a lot like Maine, other than it was very 
flat. People there had--their accents were funny.
    [Laughter.]
    He might think that ours are, so we will let him tell you 
one way or the other. But it has been great working with him to 
try and get things done for small businesses in America.
    For those of you in attendance, I would like to share just 
a little bit of background on proceedings. It is a formal field 
hearing of the House Committee on Small Business. Due to this 
format there is, unfortunately, not opportunity built in for 
questions or public comments from the audience during the 
hearing itself. However, I want to thank you for your 
attendance. My staff and myself, Congressman Stauber, are going 
to be sticking around afterwards to field questions and talk to 
you, and we look forward to that, so thank you for being 
mindful.
    With this field hearing we are bringing Congress to 
Washington County for I think what might be the first time. I 
don't think we have had a congressional hearing in Washington 
County before. Field hearings play an important role in 
Congress' work. Traveling to Washington, D.C. and testifying 
before Congress creates numerous barriers in costs and time 
that can prevent important voices from being heard. Field 
hearings serve to bring the work of the Committee closer to the 
people that we represent and offer our communities the 
opportunity to share their views on the issues that matter. I 
am proud to bring the Subcommittee here to Machias to hear 
directly from my constituents.
    For many Americans living in rural parts of our country, 
especially here in Maine, access to high-speed broadband is 
still not a reality. In our district alone, at least 80,000 
people don't have access to a fixed high-speed Internet 
connection. This is not just a problem in Maine. In fact, 58 
percent of Americans living in rural communities believe that 
lack of access to high-speed Internet is a problem in their 
hometown, and they are right about that.
    These Americans and entrepreneurs need access to affordable 
broadband services at comparable speeds. Both parties agree 
that the broadband gap is a problem and there is bipartisan 
consensus in Congress that we need to tackle this problem. 
There are many issues in our politics these days that divide 
Americans where we seem to be moving away from solutions rather 
than towards them. Broadband just isn't one of those issues, 
thankfully.
    We can make progress on this issue working together, and we 
plan to seize this opportunity and show the American people 
that Congress can work together to help improve lives and our 
communities.
    Broadband is such an important issue to tackle. We all know 
how crucial successful small businesses are to rural 
communities. They provide good jobs and bring in new people. 
They revitalize old Main Streets and can lift the entire 
economy of a rural area. But without access to reliable 
Internet, small firms just aren't set up for success. They miss 
opportunities to connect with new customers and take advantage 
of cost-saving tools like digital payment processing and online 
distribution services.
    On the other hand, small businesses that are digitally 
connected earn twice as much revenue per employee, experience 
four times the revenue growth year over year, and are three 
times more likely to create new jobs.
    So it is clear that small businesses in communities in 
rural areas are being held back by a lack of access to high-
speed broadband. Recognizing that rural areas with challenging 
terrain and low population density are unlikely to attract 
private investment in broadband infrastructure, the government 
needs to improve. We need to do what we can to improve this 
situation by identifying these areas of need and providing 
support to make these areas economically feasible for broadband 
service.
    While the policy debate inside the Beltway sometimes gets 
bogged down in the nitty-gritty details, nearly everyone agrees 
on this basic problem. So when private investment fails to 
provide what are essential services that promote economic 
development, we as policymakers must look at every available 
option to bridge the digital divide for rural America.
    That is why we are stressing the need to coordinate Federal 
resources and make targeted investments in broadband 
infrastructure through mechanisms that are accessible for 
providers large and small, private and public. While Federal 
agencies like the FCC and USDA have made investments through 
ongoing support, loans, and grants, much more should be done.
    First and foremost, the Federal Government must have 
accurate data to ensure that funds and resources are 
efficiently allocated to expand coverage to unserved areas. 
There are reports and widespread public outcry confirms that 
the FCC's maps are grossly overstating the number of rural 
households that have broadband. I think some of you may have 
experienced this here in Maine. I know it was the case out in 
Minnesota. But we have had hearings in Congress that show that 
this is a widespread problem across the country.
    We had hearings specifically about broadband mapping and 
rural broadband access. I have also led a letter, working with 
Congressman Stauber, to the FCC Chairman, calling on him to 
improve the Commission's data collection and require carriers 
to submit more granular, more accurate data about broadband 
availability.
    In response, the FCC has now issued an order requiring new 
data collection that will capture more accurate data and 
potentially phase out their Form 477 altogether. You may not 
know what a Form 477 is, but I think maybe some of the people 
testifying and other people that work on this issue likely do.
    I, along with Ranking Member Stauber, will be keeping a 
watchful eye on the FCC's progress and continue to push for 
maps that provide a true and accurate account of broadband 
service in our country.
    Second, as Chairman of this Subcommittee and a member of 
the Democratic Rural Broadband Task Force, I continue to push 
legislation that delivers Federal funding for broadband 
infrastructure investments. In fact, I am currently working on 
a bill with Ranking Member Stauber to direct more funding to 
deploy last-mile broadband infrastructure specifically to small 
businesses in rural communities.
    Third, Congress has an important role to play in making 
sure that existing Federal broadband programs are as effective 
as possible. Not only should they be targeted to the right 
areas using accurate information, but they should be designed 
and run so it is possible for new market entrants to 
participate and bring innovative ideas to the table. Too often, 
this is just not the case. I hope to discuss this issue with 
our witnesses today so that the Subcommittee will have guidance 
on issues that we can work on to improve.
    Members of this Committee have heard from small firms 
across the country about slow download and upload speeds and 
unreliable connections. Right here in Maine, we have the second 
slowest broadband speeds in the country. We also have 
companies, municipalities, utilities, and other stakeholders 
doing impressive and innovative work right here in Washington 
County to bring broadband into their communities, and we need 
to learn from them. That is why we have asked these folks to be 
here to testify today. I look forward to the discussion that I 
think will shed light on ways to improve connectivity in rural 
communities.
    I look forward to hearing from our witnesses, and we will 
be taking your suggestions back to our colleagues in D.C. as we 
work towards increasing the level and effectiveness of Federal 
investment in broadband so that we can bridge this digital 
divide in rural America.
    I thank each of the witnesses for joining us, and I look 
forward to having a great discussion.
    I would now like to yield to the Ranking Member, Mr. 
Stauber, for any opening statement he would like to make.
    Mr. STAUBER. Well, thank you very much, Chairman Golden, 
for holding this hearing in the beautiful state of Maine, and I 
appreciate your leadership that you have provided on the 
Committee. And above that, I appreciate your friendship.
    One of the things that we did in the 116th Congress was--
this nation is divided, and I am an old hockey player, so the 
hockey analogy is from the greatest hockey coach, Herb Brooks. 
The name on the front of the jersey means more than the name on 
the back, and when I go into that Committee hearing, it doesn't 
say Republican or Democrat. It says USA on it.
    We have made a commitment in the 116th Congress that we are 
going to move America forward together. That is the only way we 
are going to do it. I have great respect for Jared. His story 
is unbelievable, and he is a great person. The friendship means 
more than anything and what we will do today because of your 
commitment to not only the State of Maine but this country. I 
am proud to work with you, and I am proud to be here. When you 
asked, there was no hesitation. I wanted to be a part of this 
process.
    With that being said, rural America matters. Rural 
Minnesota, rural Maine matters. We have been talking about this 
for a long time. I don't have a lot of patience with the speed 
of government. I own a small business myself. For 29 years I 
have owned a small business, my brothers and I, through the ups 
and downs, and I think that for me, when I ask the question who 
is the Federal Government, we are the Federal Government. It is 
not Jared and I. We are the Federal Government, and we have to 
listen. We have to make those investments in those rural 
communities. We have to make sure that rural broadband is 
brought to the rural communities, not just to the metropolitan 
areas, because the schoolchildren in rural America, in rural 
Maine, matter. The hospitals in rural Maine matter. This is 
part of the bringing the opportunity for the country to really 
live, move your businesses out to rural Maine and rural America 
and rural Minnesota, because our quality of life is awesome.
    We have enough rural legislators in Congress that we can 
push this initiative, and I am looking forward to hearing from 
the experts on the hiccups you are coming across, the 
roadblocks you are coming across, so we can go into Congress 
and push that message to be able to effect the deployment 
across the nation and into rural Maine. In the rural, most 
eastern part of Maine, it matters. The City of Machias matters.
    So I am here to listen, to learn, and, as Jared talked 
about, we are going to take questions afterwards, and we will 
stay as long as we need. It is a pleasure to be here, and I 
want to listen and hear from the experts.
    So thank you, Mr. Chair.
    Chairman GOLDEN. Thank you. The gentleman yields back.
    I will just say that for those of you out there who are 
watching or are in the crowd, if you are a big Black Bear fan 
or a hockey fan, you may judge the name on the front of the 
jersey that Pete used to wear when he came here in 1988 to play 
against the University of Maine, the Black Bears, in hockey.
    [Laughter.]
    Mr. STAUBER. I wasn't going to bring that up, Mr. Chairman.
    [Laughter.]
    Chairman GOLDEN. He is an amazing guy. He was one hell of a 
hockey player, a law enforcement officer, now a member of 
Congress. He is married to a woman who served our country for--
how many years, Pete?
    Mr. STAUBER. Twenty-four.
    Chairman GOLDEN. Twenty-four years. That is, to me--that is 
an American family right there, in a big way. He is all about 
service, and I love what he has to say about working together 
to improve our country. Like I said, I feel very lucky and 
fortunate to have this friendship and to have such a good guy 
to work with professionally in Congress.
    Thanks again for coming.
    Mr. STAUBER. You are welcome.
    Chairman GOLDEN. With that, I will explain very quickly how 
this works to the people testifying. I will introduce each of 
you, and each will be given some time to give an opening 
statement that summarizes your written testimony. We usually 
use a timer down in Washington, but we will do this without 
that kind of formality today.
    Next we will have time for questions for myself and Mr. 
Stauber to each of you.
    With that, I would like to introduce our witnesses.
    Our first witness, Mr. Mark Ouellette, has a business right 
here in Machias, Maine. He is the President and CEO of Axiom 
Technologies, an Internet Service Provider headquartered in 
Washington County. Mr. Ouellette has held a number of senior 
leadership positions throughout his career, such as Director of 
Business Development for the State of Maine. Most recently, he 
was pivotal to Axiom receiving a Microsoft grant award to 
provide Internet access to homes in Washington County using TV 
White Space technology, and securing a USDA grant to support a 
fiber optic deployment across the three-island community of 
Cranberry Isles.
    Welcome, Mr. Ouellette, and thank you.
    Our second witness is Mr. Chris Loughlin, a board member of 
Downeast Broadband Utility, and he is the Town Manager of 
Baileyville. Downeast Broadband is in the process of 
constructing an open-access, dark-fiber network in Calais and 
Baileyville. He has over 13 years of experience as a town 
manager, a role that he has taken on for the towns of Machias, 
Denmark, and Baileyville. He has also worked for 16 years at 
the Downeast Community Hospital.
    Welcome, sir, and thank you.
    Our third witness is Ms. Lisa Hanscom, the Co-Manager of 
Welch Farm and First Selectman from Roque Bluffs. She is a 
lifelong resident of the town of Roque Bluffs, where she has 
learned both firsthand and through her interactions with fellow 
citizens about the business and other challenges created by 
slow Internet connectivity. She has worked aggressively in the 
past year-and-a-half to bring high-speed broadband to her 
community through the town's application in Maine for a $1.3 
million proposal to the ReConnect pilot program from USDA.
    Welcome, ma'am, and thank you for joining us.
    And our final witness is Mr. Timothy McAfee, CEO of Pioneer 
Broadband in Houlton, Maine. At Pioneer, he has designed and 
implemented a number of broadband networks, including cross-
border links to New Brunswick and fiber-to-the-home builds in 
multiple county neighborhoods and municipalities. Currently, 
Pioneer is working with the Downeast Broadband Utility here in 
Washington County to connect Baileyville to fiber. I would also 
like to recognize him as a fellow veteran.
    Thank you for your service.
    He had an entire career as a Navy nuclear reactor operator 
before returning to Maine to enter the technology field.
    Welcome.
    I will now turn it over to the panel. We will first 
recognize Mr. Ouellette.
    Thank you, sir.

    STATEMENTS OF MARK OUELLETTE, PRESIDENT AND CEO, AXIOM 
   TECHNOLOGIES, LLC; CHRIS LOUGHLIN, BOARD MEMBER, DOWNEAST 
   BROADBAND UTILITY, TOWN MANAGER, BAILEYVILLE, MAINE; LISA 
HANSCOM, CO-MANAGER, WELCH FARM AND FIRST SELECTMAN; TIMOTHY R. 
                 MCAFEE, CEO, PIONEER BROADBAND

                  STATEMENT OF MARK OUELLETTE

    Mr. OUELLETTE. Thank you. Thank you for having me, and 
thank you for the opportunity to testify, Representative Golden 
and Representative Stauber.
    I had a nice opportunity to chat with Representative 
Stauber before the Committee hearing and we are just very 
pleased to have you here and appreciate the opportunity to 
speak before you both.
    My name is Mark Ouellette, and I am the President and CEO 
of Axiom Technologies. Axiom is a full-service Internet Service 
Provider based right here in Machias. From our founder's roots 
and the first wireless Internet connection in Washington County 
14-plus years ago, our mission has not changed in our business, 
and that is to deliver strategic and customized rural broadband 
deployment solutions to remote customers and communities across 
Maine.
    Axiom currently serves approximately 1,300 of the most 
remote customers in Maine, so we are a small business. We also 
serve several islands on the coast of Maine, and I don't think 
it is an understatement to say we serve some of the most 
difficult customers to reach in some of the most challenging 
and remote terrain in the United States.
    Axiom has deep experience with all Internet technology--
wireless, including TV White Space, which Representative Golden 
mentioned, DSL and fiber. We work hard to deliver innovative 
solutions that work at a cost that makes sense to the 
subscriber.
    Over the years, how people use the Internet, especially in 
rural Maine, has evolved and become critical to small and home-
based businesses, and increasingly to people who can work from 
anywhere and choose to live in Maine and rural environments 
because of quality of life. You all already know this: 
education, telemedicine, teleconferencing, entertainment, and 
phone service are increasingly reliant on a strong, reliable 
Internet connection and enable remote, rural customers to 
connect to the world, create their own economy, and 
successfully preserve their way of life. Internet connectivity 
can help save rural communities from dying.
    In Maine, numbers are difficult, but as you know--you 
mentioned the numbers are difficult. They are difficult to 
understand, but estimates suggest there remain 20,000 unserved 
homes in Maine, and tens of thousands of underserved homes 
across Maine. Most of rural Maine struggles to reach the FCC 
standard of 25/3 megabits per second.
    And for Maine's rural businesses, lack of robust 
connectivity is increasingly impeding growth. Fiber, the gold 
standard of connectivity, remains difficult for many rural 
small businesses to access or afford. Many businesses have been 
disappointed to learn that the cost of a fiber connection is 
out of their reach, even if they have access to that type of 
connection, often costing between $2,000 and $10,000, on 
average, depending on the location of the fiber connection 
point, and this is just the cost to connect. In addition, the 
monthly subscriber fees can sometimes run over $100 or more per 
month, very difficult for small businesses to afford.
    Affordability is a significant barrier for small rural 
businesses to connect and obtain better speeds and reliability. 
Accessing online, cloud-based services like QuickBooks, Zoom, a 
teleconferencing technology, with a less-than-optimal 
connection at the very least has productivity consequences and 
can prevent the ability of a small business to access these 
tools at all.
    Every person deserves to be connected. Every business needs 
a level of speed and reliability that allows them to succeed in 
an increasingly digital economy. In a rural state like Maine, 
residential connections are often a business connection. You 
can't lose sight of that. Increasingly, rural Maine is working 
from home for themselves or remotely for companies from other 
places, not just in Maine but across the United States.
    The digital divide is increasingly giving urban areas 
better access, reliability, and speeds, while the rural areas 
continue to lag behind. Government programs like the USDA 
ReConnect Program and the Department of Commerce EDA are 
helpful, but more needs to be done to ensure the vibrancy and 
productivity of rural America. No Internet Service Provider can 
affordably serve very rural homes without Federal, state, or 
local subsidy.
    We all want to do it. We all want to serve. We need to have 
a return on that investment.
    There is no doubt in my mind that the lack of good 
broadband Internet in rural Maine is creating an economic lag 
on our economy here in Maine.
    In summary, I will just make five points.
    First, equal access to all. All small businesses are not 
created equally. A job created or retained in a rural community 
can have an oversized impact on the economy.
    Second, future-proof. Fiber optic systems can deliver a 
gig--1,000 megabits per second--to each location, and 
inexpensive new technology is being developed to deliver 10,000 
megabits per second to a single location. The government should 
stop investing in outdated, unscalable technology.
    Congress should ensure that connectivity should not be 
dictated by the location of your home or small business. Rural 
connectivity is extremely important, and policy decisions in 
Washington should not exacerbate the urban/rural divide.
    Fourth, reliability. Nothing is more frustrating to any of 
us than when you can't do something on the Internet. We have 
all experienced that at 4 o'clock, I just need to send this 
document out, and the little spinning thing starts spinning, 
and you go, oh my God, can't do this. Reliability is paramount, 
and I just want you to keep that in mind when you think about 
speeds and all the other technology involved. Super-reliability 
really matters. It certainly matters in rural Maine.
    Last, bridging the digital divide requires more than a good 
connection. It requires educating subscribers how to leverage 
that connection through digital literacy teaching and classes. 
Axiom's founder has created the National Digital Equity Center, 
whose mission is to ensure that all citizens have tools to 
fully participate in the digital economy and society. The 
Federal Government can play an outsized role in educating 
citizens and municipalities on how to better leverage a 
broadband connection, should they be able to get one.
    Thank you again for the opportunity. I appreciate the time. 
And just for the record, I would like to say that Tom Brady is 
a better quarterback than Aaron Rogers.
    [Laughter.]
    I will end my testimony there.
    [Laughter.]
    Chairman GOLDEN. You are very strong----
    [Laughter.]
    Sir, you are next. We will go right on down the line.

                  STATEMENT OF CHRIS LOUGHLIN

    Mr. LOUGHLIN. My name is Chris Loughlin. I am testifying 
today on behalf of the Downeast Broadband Utility and have 
prepared this testimony with the assistance of our 
organization's President, Danny Sullivan. I also serve as Town 
Manager of Baileyville, which is one of the two communities 
that will be served by the Downeast Broadband Utility open-
access dark-fiber network. In fact, Calais and Baileyville got 
together to form Downeast Broadband Utility.
    Since this Committee is focused on infrastructure, we would 
like to address that first. Infrastructure has been critically 
ignored for the last 30 years in the multiple broadband debates 
that have occurred over various government and private 
agencies. Like building a road or expanding electricity, the 
foundation needs to be in place first and foremost. 
Unfortunately, in Maine and throughout the country, this 
critical basic infrastructure debate has been hijacked by 
incumbent Internet Service Providers more concerned with short-
term profits than long-term public good. Were those dollars 
their private funds, that would be understandable, but that has 
not been the case. Millions of public dollars have found their 
way into private companies promoting their own brand of 
broadband. Maine and this country are yearning for better 
broadband. Were that not the case, there would be no need for 
this hearing.
    A few facts need to be understood. The Internet backbone, 
the very heart of the system, is fiber. What is referred to as 
the ``middle mile'' is fiber. Where this country has dropped 
the ball is what is referred to as the ``last mile.'' Rather 
than completing the fiber network to the home, we have allowed 
private companies to set the agenda and use public funds to 
finish that final mile with DSL, cable, and fixed wireless 
Internet. These are all copper-based technologies that are 
inadequate to the task. It seems incredible now to think that 
we have built world-class fiber backbone networks, only to miss 
the mark to our homes and businesses because we have allowed 
private companies to put their profits ahead of the American 
taxpayer.
    The technology is actually pretty straightforward. As 
previously mentioned, the core of the Internet is fiber. Why 
isn't the rest of the network the same technology?
    Wireless keeps being touted, especially in hilly, 
mountainous states like Maine. But in reality, this does not 
work. The ConnectMe organization is an arm of the Maine 
government and has given $10 million to companies building 
wireless networks, as well as DSL and cable. Why does this 
hearing exist if previous efforts were the solution?
    A recent Post Road study, in conjunction with the Roosevelt 
Institute, concluded that in reality the cost of building all-
fiber-to-the-home networks is actually more cost-effective than 
trying to fix this issue with wireless solutions.
    This Committee, from its very name, is focused on 
infrastructure. In our president's conversations with 
Congressman Golden, he has tried to make it clear the need for 
all-fiber-to-the-home and business networks, especially when 
expending public funds. This fiber infrastructure needs to be 
in place, much the same as electric cables were strung in the 
`30s to bring electricity. Building an all-fiber network will 
position Maine and this country first in regard to world-class 
future-proof broadband.
    We urge this Committee not to go down the path of previous 
committees and allow incumbent companies that promote their own 
version of broadband to once again drive the debate and waste 
public funds.
    The solution is simple. Ask any IT person. Build fiber and 
only fiber networks all the way from the source of the Internet 
directly to our homes and businesses and the problem is solved. 
Two-thirds of this fiber network have already been 
accomplished. The backbone and middle mile are in place. This 
committee needs to focus on the last mile to our homes and 
businesses and make sure it is fiber.
    We at Downeast Broadband Utility have done just that. The 
citizens of Calais and Baileyville have decided to secure the 
funds to build this fiber-to-the-home network. Our network is 
close to completion, with customers to sign up in the next 
week. Interest has been overwhelming.
    If we can impart only one thought to carry away from this 
meeting, it is fiber from beginning to end. There is a lot of 
confusion around this technology, but remember one thing. All 
technologies, whether it be cell towers, fixed wireless 
Internet, satellite, 4G, 5G, et cetera, they all have to 
eventually connect to a fiber connection to get to the 
Internet. Build the hard-wired fiber networks to all our homes 
and businesses in Maine, as Calais and Baileyville have, and 
the problem is solved.
    Thank you for the opportunity to testify.
    Chairman GOLDEN. Thank you, sir.
    Ms. Hanscom, you are recognized.

                   STATEMENT OF LISA HANSCOM

    Ms. HANSCOM. Congressman Golden, Congressman Stauber, my 
name is Lisa M. Hanscom. I would like to extend my thanks to 
all of you for the opportunity to speak to you and to share 
both my and my community's challenges to raise the tide not 
only for our businesses but for all those who interact with 
those businesses.
    I come to you wearing three separate hats. I am a farmer, a 
businesswoman, and a selectwoman. I am the owner and a manager 
of a family farm, a blueberry farm. We are in the midst of our 
blueberry season, the most frantic time of the year for me. 
Nevertheless, I felt the need to take this time to come and 
speak to you on this very important topic.
    I also run an Airbnb rental located at the farm, and I use 
the inadequate Internet that I have to advertise our blueberry 
products, interact with buyers, and with rental customers.
    Our home Internet is limited in both up and download 
speeds, generally less than 7/1 megabits per second. I am 
unable to increase the quality and quantity of my businesses 
because of the poor Internet speeds.
    I am also First Selectwoman in Roque Bluffs. I am well 
acquainted with the struggles of my residents to access good, 
reliable Internet service. Our community has recently come 
together to bring broadband to our entire town in locations 
where our overall Internet quality at present is poor or even 
inaccessible.
    Roque Bluffs is a small community of about 300 people. We 
are 10 miles from where we are sitting right now, literally at 
the end of a road. You must choose to drive to Roque Bluffs to 
get there; we are not on anybody's route. Consequently, most 
broadband companies are not interested in serving us. Indeed, I 
have had companies, when I have contacted them in hopes of 
better service, terminate my call because they did not want to 
offer me service once they knew of my location. When my 
Internet service has been slowed, as it always does at night, I 
have lost connections with my Airbnb customers. This happens on 
a regular basis. Have I lost those customers? I don't know. But 
clearly, this quality of communication is not conducive to 
positive business interactions.
    There are many more of me--farmers, fishermen, lobster 
sellers--who either are paying exorbitant prices for better 
connectivity or are struggling to make do with this inadequate 
technology.
    In Roque Bluffs, we had residents who planned to run their 
businesses out of their homes but who sold those homes because 
their Internet service was too slow.
    In Roque Bluffs, we have home-bound, elderly patients who 
cannot connect over the Internet in order to interact with 
their doctor or nurses.
    In Roque Bluffs, we have elementary, high school, and 
college students who--or their parents--must drive into Machias 
to accomplish their online homework. We have older continuing 
education students who cannot complete their online exams 
because of the inconsistency of their Internet connectivity.
    Small rural communities are typically small in population 
but large in geographical area. For them, the last-mile problem 
is that a lot of infrastructure needs to be built to adequately 
serve a small number of customers. This generally means a poor 
expected return on infrastructure investment. Once the 
infrastructure exists, the economics of managing that 
infrastructure and providing service to customers becomes more 
attractive.
    The town of Roque Bluffs, like many small towns in 
Washington County, is currently served, where it is served at 
all, by a patchwork of inadequate infrastructure. Service is 
typically slow, much less than 10 megabits per second, and 
unreliable. It relies on modest upgrades to outdated 
technologies. No commercial provider has been willing to make 
the capital investment necessary to provide modern broadband 
service throughout the town.
    Recognizing this, the town of Roque Bluffs recently took 
matters into their own hands, working in partnership with Axiom 
Technologies of Machias and the Island Institute of Rockland. 
In May, the town passed warrant articles authorizing the 
installation of a fiber optic network reaching every residence 
in town. The town will make the infrastructure investment the 
private sector has been unwilling to make. It will own the 
infrastructure and will hire Axiom Technologies to light up the 
fiber and manage the system under contract.
    The town voted to fund this investment in its future with 
tax revenues if necessary, but it also submitted a proposal to 
the USDA ReConnect pilot program to fund a portion of its 
construction. The ReConnect program is intended to address the 
problem of capital investment in rural communities and provides 
for a number of funding models using a combination of 
guaranteed low-interest loans and outright grants.
    While Roque Bluffs greatly appreciates the opportunity that 
the ReConnect program provides, the grant application process 
itself was clearly not designed with a small, rural community 
in mind. Installing a broadband system is a complex endeavor. A 
business model must be developed, and engineering cost and 
feasibility studies must be performed. Various state and 
Federal agencies must be consulted for approvals. All of this 
takes considerable time, money, and expertise. The fundamental 
problem with the ReConnect program is that a project must be 
taken to a shovel-ready state before making an application. For 
a small, rural town run by a part-time board of selectmen, the 
kind of time, money, and expertise required to complete such a 
complex proposal process is in short supply.
    Roque Bluffs was fortunate in receiving financial and 
advisory support from the Island Institute to develop our plan. 
It was fortunate in finding an ISP in nearby Machias which 
specializes in working with underserved communities. It was 
fortunate in having residents with expertise in writing large, 
complex grant proposals. Effective Federal grant programs 
should not require such good fortune in its applicants simply 
to make it to the proposal stage.
    While the ReConnect announcement of opportunity stressed 
its support for the kind of public-private partnership we 
assembled, the program clearly did not anticipate such an 
applicant. Much of the financial and business plan information 
requested was not applicable to a public entity supported by 
tax revenues. A detailed construction plan was required. A 
costly review by an independent consulting professional 
engineering firm was also required. The proposal then required 
detail at the individual utility pole level of that plan. While 
the system to be installed must provide at least 25 megabits 
service, the grant will not fund any construction where 10 
megabits service currently exists. Part of the problem with all 
Internet service is that customers rarely receive the 
advertised speeds. As soon as the town voted to proceed, 
commercial providers began to install what they claimed was 
service upgraded to 10 megabits per second, though in practice 
this seems not to be the case. The town, however, is now 
burdened by having to document this failure to provide 
advertised speeds, a difficult and technical double jeopardy.
    There are, at the very least, many hundreds of rural 
communities lacking meaningful broadband availability in the 
U.S. Only 38 organizations managed to submit applications to 
the $200 million ReConnect program this year. The unnecessary 
complexity of that application process is clearly a major 
impediment to the effective implementation of the program.
    I am thrilled that Representative Golden and others have 
taken the time and made the effort to explore this issue more 
deeply. We thank you all for your attention and encouragement, 
and we do need that.
    I believe that Representatives Golden and Stauber are 
making a good first step. However, in my opinion and because of 
my experiences, I would urge you to seriously consider the 
problem at a broader scale. During the Great Depression in the 
1930s, Franklin Roosevelt proposed legislation to bring 
electricity to all rural communities across the country. In my 
community of Roque Bluffs, that connection was not completed 
until 30 years later, in the 1960s.
    Few businesses exist in isolation; they are integral parts 
of communities. Creating a business-friendly community means 
keeping young people from moving away, attracting new working-
age residents, and creating an educated workforce. This 
requires broadband not only at work but at home for students 
and for employees and their families.
    The ``last mile'' problem is not literally one mile, but 
many. Most small, rural communities lack a broadband network 
altogether. The problem is not the single mile down the 
driveway to the road, it is extending the network over many 
miles to provide service on the road itself. Once the network 
has been extended, providing service to all customers, not just 
small businesses, becomes economical.
    It will cost $1.3 million to build a fiber optic network 
throughout our town, about $30,000 per existing small business. 
That same $30,000 by itself would be very unlikely to enable a 
broadband connection to any one business in our town, while the 
network will make Roque Bluffs a far better place to do 
business.
    The essence of the Internet is that it is a network, and 
networks depend upon economies of scale. The paucity of 
commercial investment in rural broadband is caused by a lack of 
scale which cannot be effectively addressed by providing a 
handful of point-to-point connections. It must be addressed by 
providing the community as a whole with access to what has 
become a modern utility.
    I hope that we will not have to wait 30 years to lift all 
of our boats, all of our communities, or to bring this real 
opportunity to all of those who dream to better themselves and 
their families.
    Thank you again for giving me the chance to speak on this 
critical issue, and thank you for all the work that you have 
and will accomplish. God speed.
    Chairman GOLDEN. Thank you, ma'am.

                 STATEMENT OF TIMOTHY R. MCAFEE

    Mr. MCAFEE. Thank you for the opportunity to testify on the 
proposed Small Business Last Mile Act of 2019. My name is Tim 
McAfee and I am the CEO and Engineer for Pioneer Broadband, a 
small Internet Service Provider in Aroostook and Washington 
Counties in the state of Maine.
    Connecting small businesses to the Web is extremely 
important in today's economy. The marketplace has changed. 
Consumers want products at the touch of a button, and producers 
want to get their wares to market as soon as possible. As 
communication technology has evolved over the last 20 years, 
there are plenty of spots throughout our great state, and 
country for that matter, that lack sufficient broadband access. 
Things like telecommuting, telehealth, and digital content 
creation are becoming more mainstream. We live in a beautiful 
state, a wholesome place to raise a family.
    Our company started out as a wireless company in the early 
2000s. We have since migrated all our focus to fiber optic 
networking. We have done this because the wireless and copper 
technologies have not kept up with the consumer demand. Our 
customers want fast, reliable Internet access, whether it is 
for business or pleasure; that is what our society is 
demanding. The Internet of Things is growing exponentially. 
Connected devices are the norm, whether it is a toaster, a car 
wash, or a vehicle. We have embraced the technology as users 
but seem to have overlooked the aspect of infrastructure.
    At Pioneer Broadband, we love providing fiber optic service 
to a small business in a rural setting. We do it whenever we 
can, but there is true expense to doing so. It costs tens of 
thousands of dollars per mile to build fiber. We cannot always 
make a business case to deliver. If the customer cannot afford 
to pay for it, we will try to find a grant source that fits. 
The ConnectMe Authority has been instrumental in connecting 
various communities in our coverage area and we applaud their 
efforts.
    Some existing Federal programs are very difficult to 
obtain. The intentions are good, but they are not designed for 
every situation. They do not always make sense either. For 
example, the USDA Community Connect grant will pay for 
construction of a network to every home but requires the 
operator to build and staff a community center with computers 
and Internet access. Another example is the CAF II program. It 
is only available to ILECs, the incumbent local exchange 
carriers, or your telephone company. They are using the CAF 
funds to install DSL rollouts on their copper infrastructure. 
That seems like a complete waste of money to me. That money 
should be put into fiber-to-the-whatever infrastructure. That 
is what will benefit the consumer.
    I appreciate the focus of this Act. It is designed to make 
it easier for a small, rural business to get connected. It is 
focused on fiber as a medium. I am, however, concerned about a 
couple of the following phrases: ``duplicate infrastructure'' 
and ``functional equivalent.'' These phrases look like a good 
way to circumvent the Act's intent.
    Again, I thank you for the opportunity to testify, and I 
look forward to the successful progression of this proposed 
bill.
    Chairman GOLDEN. Well, thank you all very much for the 
testimony.
    This is going to bring us to some back and forth. We are 
going to do some questions, Pete and I, before we do some 
closing statements and have some time together as well, as you 
said, to talk to folks and answer your questions.
    I did want to take a quick moment just to recognize a few 
people who are here today. We have the district office director 
for the Small Business Administration, Amy Bassett, who has 
come here today. I really appreciate your coming to Washington 
County to be a part of this. She is here to serve small 
businesses all over the State of Maine, and she really travels 
the state all over to get out and try to meet people in 
different regions and make sure that people are aware of the 
services they provide, which are many. In addition, the 
legislation that Pete and I are working on would involve the 
Small Business Administration, so I am glad she is here paying 
attention to it, because I am hoping that you might find 
yourself running a great program, bringing broadband to rural 
communities.
    We also have a really wonderful state senator here. Many of 
you must know her, Marion Moore, sitting right out in front. 
She represents you all in the state senate. Thanks for coming 
out.
    Bill--is Bill in here? We just met. You are the local 
selectman?
    SPEAKER. Yes.
    Chairman GOLDEN. Welcome and thank you very much. I look 
forward to sitting down to talk with you.
    Also, state representative Jenda Chant is here. You are a 
long way from home. I am so glad you are here. It is good to 
see you.
    All right. Well, my staff had prepared several questions, 
but listening to the testimony, I think some came to mind.
    The first is, you were talking, Mr. Ouellette, about 
getting fiber connection, perhaps costing a small business 
somewhere between $2,000 and $10,000, on average, when you have 
gone and looked at someone who has tried to gain access to 
broadband service. So thinking about the bill, the Last Mile 
Act we are working on, I was curious if you thought that was 
structured appropriately in terms of the size of the grants 
that are being made available and whether or not in many 
instances you think it would be enough that businesses might 
qualify for in order to get the job done, or do you think it 
needs a higher range?
    Mr. OUELLETTE. Thank you for the question. Let me start by 
saying I think skin in the game really matters, so I do not 
believe that full subsidy is required, nor should it be the 
norm. I think that a small business does need to invest in its 
own future, and there needs to be some payment, some amount of 
money that the small business needs to come up with. So when 
you think about your bill, I think the appropriate amount that 
you talked about in your draft bill makes sense from my 
perspective, and I don't think they are overly generous, and 
they are not short either. I think you hit a sweet spot, from 
my perspective, that makes sense.
    The further away you get from fiber or from a main fiber 
line, the much more expensive it is going to get. So you are 
still going to miss a bunch of places, especially in really 
rural Maine where it is difficult to find a fiber connection 
that you can connect to affordably. And when I say affordably, 
I mean for under $20,000 affordably. So that really matters. So 
it is going to be hard to figure out how that works from my 
perspective, but I think you have taken a good first step and a 
good reliable step, I think, to support small businesses in 
rural environments.
    And certainly, as I look around this room, there are 
businesses here who have struggled to try to get connected at a 
reasonable cost because they know they need better 
connectivity, and we have given them pricing that has been too 
expensive, that they couldn't afford. So from a small business 
standpoint, we have to have a return on investment, and what 
that looks like in the environment we live in today is either 
the ISP is saying we need a long-term contract, so you have to 
sign up for a very long time, sometimes over five years, so 
that we can subsidize that build for some period of time, or 
you have a pretty expensive up-front cost that can't be 
afforded.
    So either way it is difficult, and I think your bill speaks 
to that and makes a lot of sense.
    Chairman GOLDEN. Just so everyone knows, the bill that we 
are discussing would provide grants at $15,000 for projects to 
a single business, or $35,000 if you were going to serve 
multiple businesses. I agree that that is also important. 
Knowing that there are other programs, some of which many of 
you have actively sought, we hope that those will be able to 
provide the resources you need for those longer distances and 
getting the fiber backbone in, the development so that you 
could then use a program like this for the last mile for 
individual businesses.
    The reliability piece of the five summary points you wanted 
to make really jumped out for me. I hear from a lot of 
businesses as I travel the district that talk about reliability 
as a deterrent to why they don't bother making some of these 
investments, because while they are happy to make the 
investment if they can find a way to pay for it, if it is not 
reliable and consistent during the work day, then it is just 
not worth the investment for them. You are in the middle of 
doing a job, and then all of a sudden, like you said, the 
spinning wheel appears, it is a big problem when there is a 
customer who is either there physically or on the other side of 
that digital divide.
    Yes, go ahead, please.
    Mr. STAUBER. Thank you, Mr. Chair.
    Ms. Hanscom, you talked about the frustrations as a small 
business owner yourself. I don't want a specific number, but 
what would the difference be if today you had high-speed 
reliable broadband? How much more money would your business 
make? Just an idea.
    Ms. HANSCOM. I mean, I think it could more than double, 
possibly even triple, because the lack of Internet--I mean, it 
is hard for me to even work on a website without coming to 
Machias to do all the downloads for pictures and stuff, so my 
website is in poor shape. With my rental cabins, just keeping 
in touch with my customers----
    Mr. STAUBER. But double or triple?
    Ms. HANSCOM. It could--yeah.
    Mr. STAUBER. And so we talk about--you know, Jared and I 
sit on the Small Business Committee. Small businesses, as you 
know, those of you who are owners of small businesses, you know 
that you are the engines of our economy. I would say this, Mr. 
Chair, that we could take the four of you, we could have placed 
you in our Small Business hearing that I held in Scandia, 
Minnesota, and it is the same thing.
    Chairman GOLDEN. It is very much the same testimony.
    Mr. STAUBER. To me, it is very frustrating, and I alluded 
in my earlier comments that I am not as patient as some people 
think we should be. You know, we have to work--we talk about 
the mapping. The Federal Government says our state is 91 
percent qualified. It is not. I live just west of the City of 
Duluth, and there are people on the western edge of my small 
hometown that can't get the high-speed reliable Internet 
service. So I think you folks are at the ground level to help 
us get that mapping right. It is not just the bigger companies. 
It can't be just the bigger companies. You have to, and you 
will be, a part of that discussion, because once we get the 
mapping, then we make that investment.
    I was just going to say can you get me my blood pressure 
medications, because it is the same thing we heard a month-and-
a-half ago in Minnesota.
    Chairman GOLDEN. Exact same thing. You heard it, too.
    Mr. STAUBER. Yes, yes.
    Chairman GOLDEN. The discussions about schoolchildren 
having to be brought to libraries several times over----
    Mr. STAUBER. To download.
    Chairman GOLDEN.--to finish their homework. Remember the 
realtor?
    Mr. STAUBER. Yes.
    Chairman GOLDEN. And you had a small-scale manufacturer who 
was testifying about how he could double, maybe triple the size 
of his business.
    Mr. STAUBER. We asked the same question, and he said the 
same thing. And furthermore, he said had he known the 
importance of that high-speed broadband, reliable, he would not 
have placed his business in rural Minnesota. I couldn't believe 
it. That is how important it was. So we are trying to make sure 
that those people that want to live our quality of life and 
want to allow their kids to come to our rural schools, that 
they have the opportunity. So you are exactly right. And then 
the realtor talked about selling a home. I mean, there are 
thousands of dollars of difference. I think we have some local 
elected officials. That is about those local additional taxes 
as well, the value of the home. It all comes together.
    Thank you, Mr. Chair.
    Chairman GOLDEN. Mr. Loughlin, you talked about copper-
based technologies that are inadequate for the task of 
providing high-speed Internet, and you also talked about how, 
in a very hilly, mountainous state like Maine, the reality is 
wireless is not the best way to go. I thought an important part 
of your testimony is that a lot of the Federal programs that 
have been created have been taken advantage of by some of the 
larger telecoms and others that have been in this business for 
a long time and are using those Federal dollars to invest in 
old technologies that aren't the best or most efficient for our 
communities, and I think you have a strong belief that these 
programs should be strictly for fiber. But I am not the expert 
that you and Mr. Sullivan, who I know that you work with, are 
on this issue, but I wanted to hear more about your thoughts on 
this, because it struck a chord with me.
    I was in the Marines, in the infantry. We also talked about 
coms in the mountains as a nightmare, and we used to actually 
have people that would climb up trees in the mountains in 
Afghanistan with copper to try and improve our ability to 
communicate, but that certainly was not efficient by any means. 
We needed some fiber there.
    Mr. LOUGHLIN. The wireless I think does have its place in 
some situations, but I think 95 percent of the solution is 
bring the broadband as close as you can. Again, even the 
wireless, if you look at some of the numbers that they 
generate, yes, you can get wireless service. But guess what? 
You are going to pay this much to get what you are getting 
through broadband. So I don't believe it is a viable option for 
most folks. In fact, Mr. Sullivan for many years had wireless 
because that is all he had available in Cooper. So, yes, it is 
not the way to go. Bring the fiber right to the location and 
you solve that problem. Initially, the expense is huge. But in 
the long run, it proves itself out.
    Chairman GOLDEN. Knowing of your lack of patience, I think 
the problem with the slow pace of government is while we are 
rolling out these programs and making these investments at a 
very slow pace, technology is getting out ahead of us, which 
isn't the intention of Congress with these programs.
    Ms. Hanscom, your testimony, like Pete was saying, is so 
eerily similar to what was going on in Minnesota, but this part 
really jumped out at me, where you talked about in order to be 
eligible for some of these Federal programs, you have to be 
building up to 25 megabits per second, but it has to be in an 
area where you can't get at least 10, and that once your 
community, following your leadership, decided to vote to say 
let's go ahead and pursue this as a community, the local 
commercial providers started advertising that they were 
offering service at that 10 megabits per second, I can only 
assume because they had some knowledge that maybe that would 
make it more difficult for you to get Federal dollars to assist 
in your project. Is that right?
    Ms. HANSCOM. Actually, yes. In fact, they didn't just 
advertise. They have been knocking on doors. I found that funny 
because we actually did approach the commercial providers about 
trying to expand their service further into the town, because 
out of the 265 homes in Roque Bluffs, only 42 can get what is 
considered high-speed Internet through Spectrum. So we had 
actually approached them, and they couldn't do anything for us 
because the actual response was that it did not make good 
business practice. They weren't going to get enough on their 
return. We did the whole procedure and had done all the 
research and did this application, and as soon as we actually 
submitted the application, some of the commercial providers 
started knocking on doors saying we can give you 10/1. So, yes, 
I was kind of shocked by that practice, actually.
    Chairman GOLDEN. I want to share with you, too, that what 
we have learned through our oversight hearings about the FCC 
and eligibility for some of these programs is that the FCC will 
map broadband access according to what a service provider tells 
them they offer.
    Ms. HANSCOM. Yes.
    Chairman GOLDEN. Which may actually make a community then 
ineligible for Federal assistance and Federal dollars to go 
ahead and expand broadband. So I think it is even worse than 
what you are describing, because in some ways it might have 
been meant to make it so that you didn't have anywhere to go 
but them, and they weren't really interested in offering the 
service to you in the first place. I think that is the kind of 
thing that Pete and I can continue to have oversight hearings 
about, because it is abusive. So, thank you for that, very 
much.
    I want to thank you, Mr. McAfee, for the feedback on the 
language about duplicative infrastructure and functional 
equivalent. I am guessing your concern is that some of these 
larger providers and their general counsel might find ways to 
use that language against our intent and make it harder.
    Mr. MCAFEE. That is my fear.
    Chairman GOLDEN. Yes. We will work to correct that, so 
thank you very much.
    Do you have additional questions?
    Mr. STAUBER. No. I think, like I said, your testimony is 
the same as we heard in rural Minnesota. I own a small 
business. It is important for our community. We are going on 30 
years, and it is not easy, especially when you have the ability 
to have more of a return on your investment. You have invested. 
You have put your capital and your blood, sweat, and tears in, 
and then we can't find a way to do this. I mean, to say that 
you could double or triple your income for you, that is what 
this country is all about, taking that risk for that reward. 
That is what capitalism is all about. And we have the ability 
to help all of us.
    But I don't want us to forget. We talked about telehealth 
and telemedicine. How critical is that for our rural hospitals? 
It is critically important that we have that connection. I will 
just relate to the north shore of Duluth, Minnesota, the north 
shore, the Canadian border. If they don't have telehealth or a 
good connection, that psychologist in downtown Duluth, the 
bigger hospital, can't give that emergency evaluation of that 
patient, and then they have to take the three-and-a-half hour 
drive. And they are without law enforcement. Law enforcement is 
my background, so it makes all the sense in the world to make 
sure that we make sure that our hospitals, and we push for our 
schoolchildren in rural America. We can't forget that.
    We are depending on you to help us out with this 
legislation, Mr. McAfee, on the language. Thank you. So Jared 
and I will go back and we will look at that. The experts are in 
this room.
    And I have said this before, Jared, you have heard me say 
this. Just because we have an election certificate doesn't make 
us an expert. We need to know where they are. So the testimony, 
as each and every one of you are talking, literally I was 
thinking this is what we heard, this is what we heard, and this 
is what we heard again.
    So I think that before you move on I would just like to 
say, Mr. Chair, that if it is happening in rural Minnesota and 
rural Maine, it is happening in rural America. I think that 
some of your points that you have given us are the same, and we 
are now going to take this and move forward with it. I am 
counting on it. And, Chairman Golden, Mr. Chair, you will have 
my full support as we move forward here, because the 
frustrations you are seeing in the people in the small 
businesses, we have talked about it enough. Those of us who are 
small business owners, you have gathered the information, and 
you jump out and make the decision. I think this is where we in 
the subcommittees are right now. We have the information. We 
have to make sure that we invest in this in a very expeditious 
manner.
    Chairman GOLDEN. Pete is an incredible advocate, as you can 
tell, for rural America, and we have been successful working 
together already. You passed a bill out of the House, and it 
was a unanimous vote to support small businesses. So I am very 
confident that we will be going through the Senate and getting 
to the President's desk. I was a co-sponsor. But the beautiful 
thing about the Small Business Committee is I guess you could 
ask my staff--not my staff, the Chairwoman's staff--whether or 
not this is the case. But I think all of the legislation coming 
out of the Committee has been unanimous. That means full 
support on a fully bipartisan basis, which is why we have a 
great track record. When something comes out of the Committee, 
it is getting through the House and the Senate and it is going 
to become law. It is really a privilege to be on a committee 
like that.
    Mr. STAUBER. Mr. Chair, could I make one more comment?
    Chairman GOLDEN. Of course.
    Mr. STAUBER. So, you had talked about electricity to every 
home. A member of the Federal Reserve out of Minneapolis, Neal 
Cashcar, he said this, so I am going to attribute this comment 
to him. He said at some point, government decided that every 
mailbox mattered. Think about it, every mailbox. Everybody 
knows that we are working on this, and we are going to make a 
difference into our rural communities.
    Before you make your closing comments, thank you all for 
being here. Thank you for having me. You live in a beautiful 
state. I drove up here from Bangor, just beautiful. Rural Maine 
has it going on, and I will say the same thing for rural 
Minnesota, we have it going on, the salt of the earth people 
represented by good folks, and that matters. So it is a 
pleasure for me to be here.
    Thank you, Mr. Chair.
    Chairman GOLDEN. Thank you very much.
    You know, we could probably go on and on. You have given a 
lot of feedback in your testimony, and I want you to know I 
have really paid attention to it, in particular not just about 
the bill that we are considering but the programs that do 
already exist. I know that the Small Business Committee staff 
spends a lot of time thinking about this issue, the ways in 
which things like the USDA program for broadband, there are 
just too many barriers and at times a lot of roadblocks, and 
you all have experienced them. You have spoken about them very 
eloquently in your testimony, and we will be using that 
hopefully in the Committee to improve those programs for future 
years. When they put out the requests for you all to submit on 
an annual basis, hopefully you will see some improvement in the 
years going forward on those programs if Pete and I are 
successful in getting the support we need and pushing forward a 
new program that is structured specifically for rural 
communities.
    And I mean that in a very serious way. We are drafting this 
in a way to make sure that it can only go to the most rural of 
communities in America.
    So let me just go ahead and pull up the closing--you have 
it right there for me. Thank you.
    The term ``universal service'' has been a critical mission 
of the Federal Government for many years, I think starting with 
electricity, telephones, and the Internet, and now moving to 
broadband. That has actually been mandated by law as the role 
of the Federal Government to accomplish this for Americans 
without access to these kinds of critical utilities. Building 
out broadband infrastructure in rural America requires targeted 
Federal investment. You all have spoken to that, and 
Congressman Stauber as well.
    I want to thank you again for being here today and for your 
willingness to take part in the hearing. We pulled this 
together--my staff worked awfully hard to pull this together, 
as did the Small Business Committee staff, but I know you all 
put a lot of effort into this as well, and you are putting a 
lot of effort into bringing broadband service into our 
communities, and I thank you for that.
    I look forward to working more with you, as always, Pete, 
to help make our communities in Minnesota and Maine as best as 
they can be. We know they are already great, but we have to do 
what we can to make them more affordable and reliable places to 
live in and do business.
    So with that, I would ask unanimous consent that any 
members, not just Pete and I--I guess this probably applies to 
all the members of the Committee--that they have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered.
    And if there is no other further business to come before 
the Committee, we are adjourned.
    Thank you all very much.
    [Applause.]
    [Whereupon, at 4:40 p.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
